                                               Office of Inspector General
                                              Corporation for National and
                                                      Community Service




         AGREED-UPON PROCEDURES OF
         CORPORATION FOR NATIONAL
       AND COMMUNITY SERVICE GRANTS
              AWARDED TO THE
        ARKANSAS SERVICE COMMISSION

                 OIG REPORT NUMBER 07-20




                          Prepared by:

             Mayer Hoffman McCann P.C.
          Conrad Government Services Division
          12761 Darby Brooke Court, Suite 201
              Woodbridge, Virginia 22192




This report was issued to Corporation management on July 18, 2007. Under the laws
and regulations governing audit follow-up, the Corporation is to make final management
decisions on the report’s findings and recommendations no later than January 18 2008,
and complete its corrective actions by July 17, 2008. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                         July 18, 2007


TO:            Kristin McSwain
               Director, AmeriCorps State*National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Carol Bates
               Assistant Inspector General for Audit

SUBJECT:       Report 07-20, Office of Inspector General (OIG) Agreed-Upon Procedures of
               Corporation for National and Community Service Grants Awarded to the
               Arkansas Service Commission

We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann P.C. (MHM) to perform agreed-upon procedures in its review of Corporation for
National and Community Service grants awarded to the Arkansas Service Commission
(Commission). The contract required that MHM conduct its review in accordance with
generally accepted government auditing standards.

In its review of the Commission, MHM questioned Federal share costs of $18,458 and non-
grant costs of $4,725 related to AmeriCorps education awards. It also presented six findings
on internal controls and compliance with grant terms.

In connection with the contract, we reviewed MHM's report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express opinions on the conclusions expressed in the report. MHM is
responsible for the attached report, dated July 9, 2007, and the conclusions expressed therein.
However, our review disclosed no instances where MHM did not comply, in all material
respects, with generally accepted government auditing standards.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by January 18, 2008. Notice of final action is due by July 17, 2008.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
cc:   Albert Schneider, Executive Director, Arkansas Service Commission
      Ronald Conrad, Administrative Partner, Mayer Hoffman McCann, P.C.
      Jerry Bridges, Chief Financial Officer
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
                    OFFICE OF INSPECTOR GENERAL
                    AGREED-UPON PROCEDURES FOR
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                       GRANTS AWARDED TO THE
                    ARKANSAS SERVICE COMMISSION


                                     Table of Contents

                                                                            Page

Agreed-Upon Procedures Scope                                                 1

Background                                                                   2

Summary of Results                                                           3

Independent Accountants’ Report on Applying Agreed-Upon Procedures           5

Results                                                                      6

Notes to Consolidated Schedule of Award Costs                                7

Exhibit: Schedule of Award and Claimed Costs for Award Numbers
03AFHAR002 and 03ACHAR001 – AmeriCorps Grants                                8

Schedule A-1 – Mid Delta Community Consortium                                9

Schedule A-2 – Arkansas Literacy Councils, Inc.                             10

Compliance and Internal Control Report                                      11

Appendix A – Arkansas Service Commission’s Response to Draft Report         25

Appendix B – Corporation for National and Community Service’s Response to
Draft Report                                                                30
                        AGREED-UPON PROCEDURES SCOPE


 The Office of Inspector General (OIG), Corporation for National and Community Service
 (Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-
 upon procedures of grant cost and compliance for Corporation-funded Federal assistance
 provided to the Arkansas Service Commission (Commission). The agreed-upon procedures
 covered the allowability, allocability and reasonableness of financial transactions claimed
 under funding provided by the Corporation for the following awards, as well as grant match
 costs. The procedures also include grant compliance testing. We performed our agreed-upon
 procedures during the period February 7 through April 3, 2007.

          Program             Award Number          Award Period            Testing Period
AmeriCorps – Formula          03AFHAR002         09/01/03 to 06/20/07   10/01/04 to 09/30/06
AmeriCorps – Competitive      03ACHAR001         09/01/03 to 12/31/06   10/01/04 to 09/30/06
Administrative                04CAHAR001         01/01/04 to 12/31/06   01/01/05 to 12/31/06
PDAT                          05PTHAR001         01/01/05 to 12/31/07   01/01/05 to 12/31/06
Disability                    04CDHAR001         01/01/04 to 12/31/06   01/01/05 to 12/31/06

 The OIG’s agreed-upon procedures program, dated November 2006, specifically includes:

        •      Obtaining an understanding of the Commission and its subgrantee monitoring
               process.

        •      Reconciling grant costs claimed and match costs of the Commission and a
               sample of subgrantees to their accounting systems.

        •      Testing subgrantee member files to verify that the records support the
               eligibility to serve and allowability of living allowances and education
               awards.

        •      Testing compliance of the Commission and a sample of subgrantees on certain
               areas in the AmeriCorps Provisions, and award terms and conditions.

        •      Testing claimed grant costs and match costs of the Commission and a sample
               of subgrantees to ensure:

               i.     Proper recording of the AmeriCorps grants, Administrative grant,
                      Program Development and Training (PDAT) grant, and Disability
                      Placement grant;

               ii.    Costs were properly matched; and

               iii.   Costs were allowable and supported in accordance with applicable
                      OMB circulars, grant provisions, award terms and conditions.




                                             1
                                     BACKGROUND

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to State commissions, such as
Arkansas State Commission, and other entities to assist in the creation of full-time and part-
time national and community service programs.

The Commission is located in Little Rock, Arkansas. The Commission is part of the
Arkansas Department of Health and Human Services (DHHS) Division of Volunteerism.
The DHHS Office of Finance and Administration (OFA) performs all fiduciary roles for the
Commission. It maintains the accounting system, performs the draws and retains the
documentation for costs incurred. It is also responsible for determining which costs are
allowable, allocable and in accordance with Federal cost principles. Match costs are also
accounted for by the OFA, but in-kind costs are maintained in a separate hard copy file folder
by the Commission’s Executive Director.

As illustrated in the following table, the Commission has received about of $5.7 million in
funding for various Corporation programs, and has claimed costs of about $3.9 million. Of
the amount of funding received, the Commission awarded in excess of $4.8 million to
subgrantees, including local school districts and nonprofit entities.

                                                                                      Drawdowns
                                                                         Testing        During
                                                       Funding            Period        Testing
              Award/Program                           Authorized         Claimed       Period*

03AFHAR002 – AmeriCorps – Formula                 $      2,118,374 $      1,271,609 $     1,262,846
03ACHAR001 – AmeriCorps – Competitive                    2,700,716        2,066,635       1,951,234
      Total AmeriCorps Funds                             4,819,090        3,338,244       3,214,080

04CAHAR001 – Administrative                                551,901         351,919         455,877

05PTHAR001 – PDAT                                          211,599         177,245         174,487

04CDHAR001 – Disability Placement                           71,206          45,499          55,379

                    Total                         $      5,653,796   $    3,912,907   $   3,899,823

* The differences between the amount claimed and the amount drawn down are generally
  due to timing issues.




                                              2
                                SUMMARY OF RESULTS

Costs Claimed

We questioned costs claimed for the following reasons as shown in the tables below.


                                                         Federal     Grant       Education
Questioned for Allowability           Grant Number        Share      Match        Award
Living Allowance for Third-Term       03ACHAR001     $    15,642             -               -
                              Total                  $    15,642             -               -

                                                         Federal     Grant       Education
Questioned for Lack of Support        Grant Number        Share      Match        Award
FSR and Accounting Variance           03ACHAR001      $    1,966     $ 20,825         $       -
Missing Member Timesheets             03AFHAR002             850            -             4,725
Missing Support for Match Costs       03AFHAR002               -        2,660                 -
                              Total                   $    2,816     $ 23,485         $ 4,725

The procedures we performed did not result in questioned costs for the Administrative Grant
(04CAHAR001), PDAT Grant (05PTHAR001) and the Disability Placement Grant
(04CDHAR001).

AmeriCorps members who successfully complete terms of service are eligible for education
awards funded by the National Service Trust. These award amounts are not funded by
Corporation grants and thus are not costs claimed by the Commission. As part of our agreed-
upon procedures, however, we determined the effect of audit findings on education award
allowability. Using the same criteria described above, we questioned one member’s
education award of $4,725 due to non-compliance with the program requirements.




                                             3
Compliance Issues

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements. Issues identified included:

           •   Fiscal Requirements not Fully Addressed During Subgrantee Monitoring
               Process;
           •   Unallowable Member Support Costs Claimed;
           •   Member Timesheet Weaknesses;
           •   Late Member Program Forms, Progress Reports and Financial Status Reports;
           •   Missing Member Program Documentation; and
           •   Inadequate Controls Over Recording and Reporting of Match Costs.

Details related to these questioned costs and awards appear in the Independent Accountants’
Report on Applying Agreed-Upon Procedures starting on Page 5.

Exit Conference

The contents of this report were disclosed to and discussed with, the Commission at an exit
conference held in Little Rock, Arkansas, on May 15, 2007. In addition, we provided a draft
of this report to the Commission and to the Corporation for comment on June 1, 2007. Their
responses to the draft report are included as Appendices A and B, respectively, to this report.




                                              4
         = Mayer Hoffman McCann RC.
               An Independent CPA Firm
              Conrad Government Services Dlvlslon
              2301 Dupont Drive, Suite 200
              Irvine, California 92612
              949-474-2020ph
              949-2655520 fx
              wwwmhm-pc.com




 Inspector General
 Corporation for National and Community Service

                     INDEPENDENT ACCOUNTANTS' REPORT ON
                       APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below, which were agreed to by the OIG solely
 to assist it in grant-cost and compliance testing of Corporation-funded Federal assistance
 provided to the Commission for the awards and periods listed below. This agreed-upon
 procedures engagement was performed in accordance with standards established by the
 American Institute of Certified Public Accountants and generally accepted government
 auditing standards. The sufficiency of these procedures is solely the responsibility of the
 OIG. Consequently, we make no representation regarding the sufficiency of the procedures
 described below, either for the purpose for which this report has been requested or any other
 purpose.

         Promam                   Award Number      Award Period             Testing Period
AmeriCorps- - Formula             03AFHAR002     09/01/03 to 06/20/07    10/01/04 to 09/30/06
AmeriCorps - Competitive          03ACHAR001     09/01/03 to l2/3 1/06   10/01/04 to 09/30/06
Administrative                    04CAHAROOl     01/01/04t012/31/06      01/01/05t012/31/06
PDAT                              05PTHAR001     01/01/05to12/31/07      01/01/05to12/31/06
Disability                        04CDHAR001     01/01/04to12/31/06      01/01/05to12/31/06

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management's assertions. Accordingly, we do not express
 such an opinion. Had we performed other procedures, other matters might have come to our
 attention that would have been reported to you.

 The procedures that we performed included:

                Obtaining an understanding of the Commission and its subgrantee monitoring
                process.

                Reconciling grant costs claimed and match costs of the Commission and a
                sample of subgrantees to their accounting systems.

                Testing subgrantee member files to verify that the records supported member
                eligibility to serve and allowability of living allowances and education
                awards.
           •       Testing compliance of the Commission and a sample of subgrantees on certain
                   grant provisions and award terms and conditions.

           •       Testing grant claimed costs and match costs of the Commission and a sample
                   of subgrantees to ensure:

                   i.        Proper recording of the AmeriCorps grants, Administrative grant,
                             PDAT grant, and Disability Placement grant;

                   ii.       Costs were properly matched; and

                   iii.      Costs were allowable and supported in accordance with applicable
                             OMB circulars, grant provisions, and award terms and conditions.

  Results

  The testing results are summarized below and in the Consolidated Schedule of Award Costs
  and the exhibit and schedules that follow. The schedules also identify certain questioned
  education awards. These awards were not funded by Corporation grants, and accordingly are
  not included in claimed costs. As part of our agreed-upon procedures, however, we
  determined the effect of all member timesheet and eligibility exceptions on these awards.

                    Corporation for National and Community Service Awards
                                 Arkansas Service Commission
                             Consolidated Schedule of Award Costs

                                    October 1, 2004, to December 31, 2006


                                                                                          Questioned
  Award                                     Approved           Claimed      Questioned    Education
  Number                 Program             Budget             Costs         Costs        Awards      Reference

03AFHAR002     AmeriCorps                   $ 2,118,374       $ 1,271,609    $      850    $ 4,725
03ACHAR001     AmeriCorps                     2,700,716         2,066,635        17,608         -
                  Total AmeriCorps            4,819,090         3,338,244        18,458      4,725     Exhibit

04CAHAR001     Administrative                  551,901           351,919              -          -

05PTHAR001     PDAT                            211,599           177,245              -          -

04CDHAR001     Disability                       71,206            45,499              -          -

                                   Totals    $5,653,796       $ 3,912,907   $ 18,458       $ 4,725




                                                          6
                      Notes to Consolidated Schedule of Award Costs

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
schedules has been prepared from reports submitted by the Commission to the Corporation
and accounting records of the Commission and its subgrantees. The basis of accounting used
in the preparation of these reports differs from accounting principles generally accepted in
the United States of America as discussed below.

Equipment

No equipment was purchased and claimed under federal or match share of cost for the period
within our audit scope.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.




                                             7
                                                                                                  EXHIBIT
                         ARKANSAS SERVICE COMMISSION
                          Schedule of Award and Claimed Costs
                    03AFHAR002 and 03ACHAR001 – AmeriCorps Grants
                          October 1, 2004, to September 30, 2006

                                                                                       Questioned
                                                         Claimed      Questioned       Education
Subgrantees                                               Costs         Costs           Awards         Reference

03AFHAR002 – Formula
 Kiwanis Activities, Inc.                                 $ 187,387    $          -        $       -
 Lonoke School District*                                    245,103               -                -
 Mid Delta Community Consortium*                            192,081             850            4,725 Schedule A-1
 Mid-South Community College                                230,923               -                -
 University of Arkansas                                     242,277               -                -
 Arkansas Service Commission                                173,838               -                -
                                         Sub-total       $1,271,609       $     850        $   4,725

03ACHAR001 – Competitive
 Arkansas Children's Hospital                             $ 292,004    $         -                 -
 Arkansas Literacy Councils, Inc.*                          716,779         17,608                 - Schedule A-2
 Rogers Public School District*                             565,552              -                 -
 Southeast Arkansas Education Service Cooperative           492,300              -                 -
                                         Sub-total       $2,066,635       $ 17,608     $           -

                                  Subgrantee Total       $3,338,244   $       18,458   $       4,725
   *Selected for Testing




                                                     8
                                                                             Schedule A-1

                        ARKANSAS SERVICE COMMISSION
                         Schedule of Award and Claimed Costs
                          Award Number 03AFHAR0020006
                        October 1, 2004, to September 30, 2006

                           Mid Delta Community Consortium

                                                                                 Reference

Approved Budget (Federal Funds)                                     $264,780       Note 1
Federal Costs                                                       $192,081       Note 2
Questioned Costs:
   Unsupported Service Hours                         $    850                      Note 3
Total Questioned Costs                                                  $ 850
Questioned Education Awards:
   Minimum Service Hour Not Met                      $ 4,725                       Note 3

Total Questioned Education Awards                                   $    4,725
Notes

1. The amount shown above as Approved Budget represents the total funding to Mid Delta
   Community Consortium according to budget schedules.

2. Federal costs represent Mid Delta Community Consortium’s reported expenditures for
   the period October 1, 2004, through September 30, 2006.

3. A member’s timesheets for the month of October 2005 were missing and, as a result, total
   supported number of service hours did not meet the minimum requirement for an
   Education Award. Therefore, we have questioned the living allowance totaling $850, and
   the education award of $4,725. For any amount of the living allowance and fringe
   benefit costs determined unallowable, the associated administrative costs should also be
   recovered. (See Finding No. 3)




                                            9
                                                                             Schedule A-2

                        ARKANSAS SERVICE COMMISSION
                         Schedule of Award and Claimed Costs
                          Award Number 03ACHAR0010003
                        October 1, 2004, to September 30, 2006

                            Arkansas Literacy Councils, Inc.

                                                                                 Reference

Approved Budget (Federal Funds)                                     $986,377       Note 1
Federal Costs                                                       $716,779       Note 2
Questioned Costs:
   Unsupported Costs                                 $ 1,966                       Note 3
   Third Term Member Living Allowance                 15,642                       Note 4
Total Questioned Costs                                              $ 17,608
Total Questioned Education Awards                                   $       -
Notes

1. The amount shown above as Approved Budget represents the total funding to Arkansas
   Literacy Councils, Inc. according to budget schedules.

2. Federal costs represent Arkansas Literacy Councils, Inc.’s reported expenditures for the
   period October 1, 2004, through September 30, 2006.

3. Supply costs claimed to the grant were not properly supported by an allocation schedule.
   As a result, we have questioned those costs totaling $1,966. For any amount of the
   unsupported costs determined unallowable, the associated administrative costs should
   also be recovered. (See Finding No. 1)

4. The Commission claimed living allowances for two members serving three consecutive
   terms. Grant funds may not be used to provide member support costs for a third or
   subsequent term of service. As a result, we have questioned living allowances and fringe
   benefits for the members’ third terms of service. For any amount of the living allowance
   and fringe benefit costs determined unallowable, the associated administrative costs
   should also be recovered. (See Finding No. 2)




                                            10
Compliance and Internal Control

In addition to the questioned grant costs and the questioned education award, the results of
our tests disclosed instances of noncompliance and deficiencies in internal controls.

1. Fiscal Requirements not Fully Addressed During Subgrantee Monitoring Process

Although the Commission has been diligent in its subgrantee monitoring, there are several
fiscal areas it did not adequately consider. This was based on our review of the
Commission’s subgrantee monitoring files, policies currently in place at the Commission and
results from our subgrantee fieldwork. These areas of weakness include:

   -   Review of staff timesheets for regulatory compliance and compliance with
       established internal policies;
   -   Review of reconciliations between subgrantee FSRs and accounting records;
   -   Determination as to compliance with administrative cost ceiling requirements; and
   -   Determination as to match compliance.

As a result, the following conditions existed at subgrantee locations.

Arkansas Literacy Councils, Inc. (ALC)
   - Staff timesheets were not prepared. Costs claimed for staff effort were based on
      budget data rather than actual effort. Alternative procedures allowed us to conclude
      that the costs claimed were equitable and therefore resulted in no questioned costs.
      However, current timekeeping practice is not in accordance with the requirements of
      the grant provisions or OMB Circular A-122.
   - Portions of the subgrantee’s AmeriCorps program expenses were recorded as general
      supplies. ALC, however, was unable to determine which portion of the expenses
      claimed were allocable to the AmeriCorps program, and as a result, only claimed
      supply expenses up to the budgeted amount. As such, we questioned the unsupported
      variance, which included costs claimed to the grant and costs claimed to grant match.

                                      Questioned Costs
                            Federal Share         Match Costs
                              $ 1,966              $ 20,825


Lonoke School District
   - Timesheets separating effort by program were not prepared. Costs claimed for staff
      salaries are based on budget data rather than actual effort. Alternative procedures
      allowed us to conclude that the costs claimed were equitable and therefore resulted in
      no questioned costs. However, current timekeeping practice is not in accordance with
      the grant provisions or OMB Circular A-87.




                                              11
   -   Match requirements per the agreement between the Commission and the school
       district were not achieved as of September 30, 2005 as shown below.

                  Required Match % for
               Program Operating Costs Per             Actual Match % for           Unfavorable
                    Grant Agreement                  Program Operating Costs         Variance
                        38.11%                              33.57%                    4.54%

Mid Delta Community Consortium
   - Timesheets separating effort by program were not prepared. Costs claimed for staff
      effort were based on budget data rather than actual effort. Alternative procedures
      allowed us to conclude that the costs claimed to the Corporation were equitable and
      therefore resulted in no questioned costs. However, current timekeeping practice is
      not in accordance with the grant provisions or OMB Circular A-122.
   - Match costs were not properly supported, resulting in $2,660 questioned grant match.
      The grant is ongoing so there is an opportunity to obtain match that is adequately
      supported.

Rogers Public School District
   - There were no procedures in place requiring the subgrantee to reconcile expenditures
       reported to the Commission with its own accounting records.

Criteria

Timekeeping
OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Section
      8.m. Compensation for Personal Services, Support of salaries and wages, states:

       (1) Charges to awards for salaries and wages, whether treated as direct costs or
       indirect costs, will be based on documented payrolls approved by a responsible
       official(s) of the organization. The distribution of salaries and wages to awards must
       be supported by personnel activity reports, as prescribed in subparagraph (2), except
       when a substitute system has been approved in writing by the cognizant agency.

       (2) Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals) whose
       compensation is charged, in whole or in part, directly to awards. In addition, in order
       to support the allocation of indirect costs, such reports must also be maintained for
       other employees whose work involves two or more functions or activities if a
       distribution of their compensation between such functions or activities is needed in
       the determination of the organization's indirect cost rate(s) (e.g., an employee
       engaged part-time in indirect cost activities and part-time in a direct function).
       Reports maintained by non-profit organizations to satisfy these requirements must
       meet the following standards:

              (a) The reports must reflect an after-the-fact determination of the
              actual activity of each employee. Budget estimates (i.e., estimates


                                                12
              determined before the services are performed) do not qualify as
              support for charges to awards.

OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments
     Attachment B. Section 8, Compensation for Personnel Services, subsection h(5)
     states:

       Personnel activity reports or equivalent documentation must meet the following
       standards:

       (a) They must reflect an after-the-fact distribution of the actual activity of each
       employee,

       (b) They must account for the total activity for which each employee is compensated,

       (c) They must be prepared at least monthly and must coincide with one or more pay
       periods,

       (d) They must be signed by the employee, and

       (e) Budget estimates or other distribution percentages determined before the services
       are performed do not qualify as support for charges to Federal awards but may be
       used for interim accounting purposes, provided that:

              (i) The governmental unit's system for establishing the estimates produces
              reasonable approximations of the activity actually performed;

              (ii) At least quarterly, comparisons of actual costs to budgeted distributions
              based on the monthly activity reports are made. Costs charged to Federal
              awards to reflect adjustments made as a result of the activity actually
              performed may be recorded annually if the quarterly comparisons show the
              differences between budgeted and actual costs are less than ten percent; and

              (iii) The budget estimates or other distribution percentages are revised at least
              quarterly, if necessary, to reflect changed circumstances.

Expense Reconciliation and Support
AmeriCorps Provisions, Section C.21., Responsibility Under Grant Administration, states in
part:

       a. Accountability of Grantee. The Grantee has full fiscal and programmatic
       responsibility for managing all aspects of the grant and grant-supported activities,
       subject to the oversight of the Corporation. The Grantee is accountable to the
       Corporation for its operation of the AmeriCorps Program and the use of Corporation
       grant funds.

AmeriCorps Provisions, Section C.22., Financial Management Provisions, states in part:


                                               13
       a. General. The Grantee must maintain financial management systems that include
       standard accounting practices, sufficient internal controls, a clear audit trail and
       written cost allocation procedures as necessary. Financial management systems must
       be capable of distinguishing expenditures attributable to this Grant from expenditures
       not attributable to this Grant. This system must be able to identify costs by
       programmatic year and by budget category and to differentiate between direct and
       indirect costs or administrative costs. For further details about the Grantee's financial
       management responsibilities, refer to OMB Circular A-102 and its implementing
       regulations (45 C.F.R. 2543) or A-110 and its implementing regulations (45 C.F.R.
       2541), as applicable.


Recommendations

We recommend that the Corporation instruct the Commission to enhance its monitoring
process by adding the following procedures to its monitoring. We also recommend that the
Corporation verify implementation of these enhancements.

   1. Examine timesheets of staff charging time to the AmeriCorps program so compliance
      with OMB A-122 and OMB A-87 can be achieved by all subgrantees;
   2. Analyze grant match throughout the grant period to minimize the risk of not meeting
      the match requirement at the end of the grant period;
   3. Examine established policies and procedures to determine if weaknesses exist,
      including procedures for reconciling the FSR amounts to the accounting system and
      compliance with the administrative cost ceiling requirements.

Commission’s Response

The Commission concurred with the recommendations. The Commission will review the
OMB circulars and will stress the importance of the site visit tool module that pertains to
staff time and attendance records. The Commission determined that its guidance on grant
match had not been clearly communicated to the finance officer and to its subgrantees and a
revision of policy will be forthcoming to clarify the point. Lastly, the Commission has
examined its policies and procedures and taken steps with the state’s accounting and finance
division to ensure FSR amounts are properly reconciled.

Auditors’ Comment

We agree that the actions to be taken by the Commission are appropriate.




                                              14
2. Unallowable Member Support Costs Claimed

Arkansas Literary Councils, Inc. (ALC)
The Commission claimed $15,642 of member living allowances and fringe benefits for two
AmeriCorps members that served three consecutive terms under grant 03ACHAR001. The
error was discovered after the September 30, 2006, FSR had been filed. The subgrantee has
since reimbursed the Commission for the error. The reimbursement has not been credited to
the grant because the subsequent FSR has yet to be submitted. The Commission has drawn
down these costs and the costs of the third terms were included in the FSR for the period
ending September 30, 2006.

Notification of members who are serving three terms is the responsibility of the
Corporation’s National Service Trust office. This notification was not provided to the
Commission, and therefore went unnoticed, but was subsequently discovered by the
Commission. Notification was not provided to the Commission from the Corporation due to
a transition of the Corporation Trust officer assigned to Arkansas. In addition, we
determined that subgrantee personnel did not fully understand the requirements of the
AmeriCorps grant.


Criteria

AmeriCorps Provisions, Section B.8., Terms of Service, states:

       b. Service in a Second or Subsequent Term. i. General. A grantee is under no
       obligation to enroll a member for a second or subsequent term of service. In addition,
       there may be limitations on an individual’s eligibility for federally-funded member
       benefits for any term beyond a second term.

AmeriCorps Provisions, Section B.12., Post-Service Education Award, states in part:

       No Corporation or other Federal funds may be used to provide member support costs
       for a third or subsequent term of service in an AmeriCorps State or National Program.

45 CFR § 2522.220, states in part:

       (b) Restriction on multiple terms. An AmeriCorps participant may only receive the
       benefits described in §§2522.240 through 2522.250 for the first two successfully-
       completed terms of service, regardless of whether those terms were served on a full-,
       part-, or reduced part-time basis.

Recommendations

We recommend that the Corporation:
  4. Review the next filed FSR to ensure that the amount in question and the related
      administrative costs have been properly excluded.



                                             15
   5. Instruct the Commission to further train its subgrantees that the living allowances for
      members after the second term of service cannot be paid with Corporation funds;
   6. Instruct the Trust officers to explore options in the new member portal for alerting
      grantees when members apply for a third term of service.

Commission’s Response

The Commission agreed with recommendations four and five. Recommendation six was
directed toward the Corporation. The Commission agreed to adjust its final FSR to exclude
the questioned member costs and agreed to review records that are available to it from the
Corporation’s Trust office. The Commission, however, stated it relied on the Trust office to
provide notice of members serving more than two terms and stated this approach was the
only avenue available to them to identify three-term members.


Auditors’ Comment

We agree that the actions to be taken by the Commission are appropriate for recommendation
number four.

As a result of the Commission’s response we modified recommendation numbers 5 and 6
above. The Commission stated that it relies solely on the Trust Department to notify it of
three-term members. The exceptions noted in the finding, however, pertained to two
members who were entering a third term at the same subgrantee program. Program officials
should have known (regardless of procedures performed by the Trust office) these members
were three-term members. We believe the program did not fully understand the grant
provisions and therefore altered the recommendation. We also acknowledge the Trust office
is responsible for providing this information.

3. Member Timesheet Weaknesses

We noted weaknesses at two subgrantee locations when testing member timesheets.

Lonoke School District
Lonoke School District lacked formal timekeeping procedures guiding its members and
teachers on properly completing and submitting timesheets until the current program year.
As a result, we found that all fourteen timesheets tested were not signed by both the member
and the teachers who supervised them.




                                             16
Mid Delta Community Consortium
We found that timesheets for the month of October 2005 were missing for one member. The
subgrantee indicated that the timesheets were missing because the program site had moved
locations and the timesheet was misplaced. Due to the missing timesheet, we were unable to
validate that the member completed the hours required to earn an education award. As a
result, we questioned the education award of $4,725 and the living allowance of $850
received for the month of October 2005.


  Total Hours         Total Hours                    Living Allowances
  Served per          Served per         Hours           and Fringe          Education Award
    WBRS              Timesheets         Missing          Benefits             Questioned
     1,700               1,582            118              $ 850                 $ 4,725


Criteria

AmeriCorps Provisions, Section C.22., Financial Management Provisions, states:

       c. Time and Attendance Records …ii. AmeriCorps Members. The Grantee must keep
       time and attendance records on all AmeriCorps members in order to document their
       eligibility for in-service and post-service benefits. Time and attendance records must
       be signed and dated both by the member and by an individual with oversight
       responsibilities for the member.

Recommendations
We recommend that the Corporation:

   7. Instruct the Commission to review timesheets for member and supervisor signatures
      during its monitoring process;
   8. Determine the allowability of the questioned living allowance, fringe benefits and
      education award.

Commission’s Response

The Commission concurred with the recommendations. It will continue to review timesheets
during its monitoring process and also on a quarterly basis. It will reiterate the importance of
timesheet accuracy with programs during regularly scheduled meetings and orientations for
new program staff.

Auditors’ Comment

We agree that the actions to be taken by the Commission are appropriate.




                                              17
4. Late Submission of Member Program Forms, Progress Reports and Financial Status
Reports

Although the Commission has established and implemented procedures to remind and follow
up with subgrantees on the submission of program forms and reports, as well as FSRs, we
found numerous instances where subgrantees did not submit these documents within
established time frames. Among the late reports were Financial Status Reports, Program
Progress Reports, Member Enrollment Forms, Member Change of Status Forms, and
Member Exit Forms. The following summarizes the instances of noted late submissions:

                                               Late        Late      Late Change
                                    Late     Progress   Enrollment    of Status    Late Exit
          Subgrantees               FSR      Reports      Forms         Forms       Forms
Arkansas Literacy Councils, Inc.   6 of 10    1 of 8       -             -               -
                                                                         -
Lonoke School District             3 of 8     2 of 8       -             -                -

Rogers Public School District      3 of 10         -           -          -         2 of 21

Mid Delta Community Consortium     7 of 9    2 of 10     6 of 14       1 of 1       6 of 14


Our testing also revealed a member at the Mid Delta Community Consortium who had never
been entered into WBRS. The member in question was enrolled and exited the program
shortly thereafter. Citing the member’s short tenure, Mid Delta did not enter pertinent
information into WBRS prior to the member’s departure and subsequently determined that it
would not be necessary to enter the member into WBRS.

Criteria
AmeriCorps Provisions, Section B.16., Reporting Requirements, states in part:

       a. Financial Status and Progress Reports.…The Corporation expects each Grantee to
       set its own Sub-Grantee reporting requirements. Grantees are responsible for
       monitoring Sub-Grantee activities and training needs, tracking progress toward
       objectives, and identifying challenges. Sub-Grantees must adhere to the reporting
       requirements outlined and communicated by its Grantee for the program year.

       b. AmeriCorps Member-Related Forms. The Grantee is required to submit the
       following documents to the National Service Trust at the Corporation on forms
       provided by the Corporation. Grantees and Sub-Grantees may use WBRS to submit
       these forms electronically. Programs using WBRS must also maintain hard copies of
       the forms:

               i. Enrollment Forms. Enrollment forms must be submitted no later than 30
               days after a member is enrolled.




                                              18
               ii. Change of Status Forms. Member Change of Status Forms must be
               submitted no later than 30 days after a member’s status is changed. By
               forwarding Member Change of Status Forms to the Corporation, State
               Commissions and Parent Organizations signal their approval of the change.

               iii. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
               Service Forms must be submitted no later than 30 days after a member exits
               the program or finishes his/her term of service.”

Recommendations

   9. We recommend that the Corporation instruct the Commission to follow-up on late
      reports for timely correction with the subgrantees.


Commission’s Response

The Commission concurred with the recommendation, but noted that most of the reports in
question had been submitted only 1-3 days late. The Commission also indicated that the
programs with later submissions had requested no-cost extensions. Lastly, the Commission
stated its understanding, based on audit results, was that it was better to submit a timely
report than an accurate report.


Auditors’ Comment

Although timely reporting is an important program requirement; accurate reporting is equally
important. We believe the Corporation is best served if the Commission assists its
subgrantees in determining the cause for the problems encountered during the reporting
process and require the programs to request time extensions for financial reporting in the
event the problems are not easily identified and resolved.


5. Missing Member Program Documentation

Member Performance Evaluation

We noted that end-of-term member performance evaluations were not properly performed at
the following subgrantees.

                                   Number of
                                   Member File    No. of End-of-Term       Orientation
           Subgrantees              Reviewed      Evaluation Missing      Documentation
Arkansas Literacy Council, Inc.        26                  8                   26
Lonoke School District                 14                 14                    -




                                            19
At Arkansas Literacy Councils, Inc. (ALC), the Councils serving under the subgrantee were
given the responsibility for performing member evaluations. However, ALC did not monitor
the Councils to verify that evaluations had actually been performed. Orientation attendance
by AmeriCorps members was also not documented, thereby precluding us from determining
whether all or any members had been properly trained.

At Lonoke School District, the end-of-term evaluations were not completed as of the date of
the Commission’s site visit because the members had not completed their service. Lonoke
School District has since established procedures requiring end-of term evaluations are
properly performed.

The lack of an end-of-term evaluation would prevent a member from being eligible for an
additional term of service. A participant is not eligible for a second or additional term of
service without a satisfactory mid-term and final performance evaluation, according to 45
CFR § 2522.220(c), Participant performance review.

Criteria

AmeriCorps Provisions, Section B.7., Training, Supervision and Support, states:

       c. Training. …The grantee must conduct an orientation for members and comply with
       any pre-service orientation or training required by the Corporation. This orientation
       should be designed to enhance member security and sensitivity to the community.
       Orientation should cover member rights and responsibilities, including the Program's
       code of conduct, prohibited activities (including those specified in the regulations),
       requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.), suspension
       and termination from service, grievance procedures, sexual harassment, other non-
       discrimination issues, and other topics as necessary.

              *       *      *      *

       g. Performance Reviews. The Grantee must conduct and keep a record of at least a
       midterm and end-of-term written evaluation of each member’s performance, focusing
       on such factors as: i. Whether the member has completed the required number of
       hours; ii. Whether the member has satisfactorily completed assignments; and iii.
       Whether the member has met other performance criteria that were clearly
       communicated at the beginning of the term of service.


Recommendations

   10. We recommend that the Corporation instruct the Commission to provide a refresher
       course for its subgrantees reminding them of program compliance requirements and
       the important role training and evaluations play in member development and the
       success of the program.




                                             20
Commission’s Response

The Commission concurs with the recommendation and has already taken steps to include
these types of program requirements in its 2007-2008 training.

Auditors’ Comment

We agree that the actions taken by the Commission are appropriate.


6. Inadequate Controls Over Recording and Reporting of Match Costs

The Commission lacked controls to ensure that match costs claimed on the FSRs were
accurate and adequately supported. Specifically, we identified the following exceptions:

Administrative Grant 04CAHAR001
  - Hourly rates were not verifiable for the effort commissioners and grant reviewers
      donated as in-kind services.
  - Documentation was not available to support the value of in-kind contributions for
      web page maintenance.
  - A variance between match costs reported on the FSR and supporting schedules was
      identified, indicating that the FSR had been overstated. The error was not detected
      through the FSR review process.
  - Time effort certifications used for grant match costs were performed quarterly by the
      Director of Division of Volunteerism. This was not in accordance with established
      state procedures or requirements of OMB circular A-87.

The exceptions identified above resulted in overstated match costs claimed on the FSR.
However, the Commission had substantial overages pertaining to its match requirements to
offset the errors identified above. As a result, we did not question the match and the
Commission remains on pace to meet its match requirement.

AmeriCorps Grants
Spreadsheets used to accumulate subgrantee match costs were maintained at the Commission
for assistance in preparing the FSR. One quarter of data was inadvertently omitted from the
FSR understating the match costs recorded for both the formula and competitive grants.

We determined that the Commission was not fully familiar with the requirements of the
applicable CFRs on match costs. In addition, subgrantee match costs were errantly omitted
from the FSRs and the errors were never detected by personnel at the Commission because
the review performed was not thorough enough to detect such errors.

The Commission is still on pace to meet its match requirements for the Administrative Grant
even considering the costs questioned above. However, the errors noted preclude the
Commission from complying with the requirements and accurately reporting supportable
match costs.



                                            21
Criteria

The Federal government’s common rule for grant administration by state and local
governments, 45 C.F.R. § 2541.200(b), requires the following for grantees’ financial
management systems:

       (1) Financial reporting. Accurate, current, and complete disclosure of the financial
       results of financially assisted activities must be made in accordance with the financial
       reporting requirements of the grant or subgrant.

       (2) Accounting records. Grantees and subgrantees must maintain records which
       adequately identify the source and application of funds provided for financially-
       assisted activities. These records must contain information pertaining to grant or
       subgrant awards and authorizations, obligations, unobligated balances, assets,
       liabilities, outlays or expenditures, and income.

       (3) Internal control. Effective control and accountability must be maintained for all
       grant and subgrant cash, real and personal property, and other assets. Grantees and
       subgrantees must adequately safeguard all such property and must assure that it is
       used solely for authorized purposes.


              *       *      *       *

       (6) Source documentation. Accounting records must be supported by such source
       documentation as canceled checks, paid bills, payrolls, time and attendance records,
       contract and sub-grant award documents, etc.

The Federal government’s common rule for grant administration by state and local
governments, 45 C.F.R. § 2541.240, requires the following for grantees’ matching or cost
sharing:

       (a) Basic rule; costs and contributions acceptable. With the qualifications and
       exceptions listed in paragraph (b) of this section, a matching or cost sharing
       requirement may be satisfied by either or both of the following:

              (1) Allowable costs incurred by the grantee, subgrantee or a cost-type
              contractor under the assistance agreement. This includes allowable costs
              borne by non-Federal grants or by other cash donations from non-Federal
              third parties.

              (2) The value of third party in-kind contributions applicable to the period to
              which the cost sharing or matching requirements applies.

       (b) Qualifications and exceptions –



                                              22
                      *      *       *      *

              (6) Records. Costs and third party in-kind contributions counting towards
              satisfying a cost sharing or matching requirement must be verifiable from the
              records of grantees and subgrantee or cost-type contractors. These records
              must show how the value placed on third party in-kind contributions was
              derived. To the extent feasible, volunteer services will be supported by the
              same methods that the organization uses to support the allocability of regular
              personnel costs.

                      *      *       *      *

       (c) Valuation of donated services –
              (1) Volunteer services. Unpaid services provided to a grantee or subgrantee
              by individuals will be valued at rates consistent with those ordinarily paid for
              similar work in the grantee’s or subgrantees’ organization. If the grantee or
              subgrantee does not have employees performing similar work, the rates will
              be consistent with those ordinarily paid by other employers for similar work in
              the same labor market. In either case, a reasonable amount for fringe benefit
              may be included in the valuation.


Recommendations

We recommend that the Corporation instruct the Commission to:

   11. Review the applicable regulations and develop policies and procedures to ensure
       claimed match costs are allowable, adequately documented, and allocable in
       accordance with applicable cost principles and regulations.
   12. Implement procedures requiring appropriate personnel to review the FSRs before they
       are submitted to the Corporation. The reviews should include tracing reported
       amounts on the FSRs to supporting documentation and verifying the accuracy of the
       data through appropriately designed analyses.
   13. Adjust subsequent FSRs to reflect actual match costs that are verifiable, accurate and
       in accordance with the costs principles.


Commission’s Response

The Commission concurred with the recommendations. Commission staff has met and
discussed the applicable regulations and has changed its method of documenting donations of
time, talent and space, as well as effort put forth by the Division of Volunteerism. The
Commission has also changed its procedures for FSR preparation by reconciling FSRs prior
to submission, printing hard copies from eGrants and obtaining review and approval
signatures from the Executive Director as well as the Finance Officer. These procedures



                                             23
were used for the April 2007 FSR submission. Lastly, the Commission submitted a corrected
FSR to reflect corrected match costs for its Administrative grant.


Auditors' Comment

We agree that the actions taken by the Commission are appropriate.




This information in this report is intended for the use of the Office of Inspector General,
Corporation management, Arkansas Service Commission, subgrantees and the U.S.
Congress. However, this report is a matter of public record and its distribution is not limited.




Mayer Hoffman McCann P.C
Woodbridge, Virginia
July 9,2007
                    APPENDIX A

Arkansas Service Commission’s Response to Draft Report




                          25
                             Arkansas Service Commission
                             DHHS Division of Volunteerism
                             Donaghey Plaza South
                             P. 0. Box 1437, Slot S230
                             Little Rock, AR 72203-1437
                             501682-7540       Fax: 501-682-1623
                             TDD: 501-682-1605


June 29,2007



Ms. Carol Bates
Assistant Inspector General for Audit
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Ms. Bates:

The Arkansas Service Commission has received and reviewed the draft report of the W c e of
Inspector General (OZG) Agreed-upon Procedures, Corporationfor National and Community
Service Grants Awarded to the Arbmas Service Commission.

On behalf of the Commission, its staff, subgrantees and partners I welcome the opportunity to submit
the enclosed response to the report. The Arkansas Service Commission prides itself on strong
systems and good customer service. We are pleased to note that overall the audit team found good
policies and procedures in place with ample evidence of good monitoring of subgrantees. We are
especially pleased thatthere were no questioned costs in the Commission's use of Administration,
PDAT or Disability funds.

The Commission has already begun the process of resolving questioned costs and findings and
implementing recommendations stated in the report. It will continue to work closely with the
Corporation to complete the process during audit resolution. As a result of this process the
Commission will be a better public servant and steward of taxpayer d o h .

We appreciate the open communication, professionalism and diligent efforts of the Office of
Inspector General, auditors with Mayer Hofban McCann and staff at the Corporation for National
and Community Service who have helped us to this point.

Sincerely,



Albert Schneider,
Executive Director



                                   "Getting Things Done"
                              Arkansas Service Commission
               Response to Corporation for National and Community Service
                    Office of Inspector General: June 1 Draft Report
                                Agreed-Upon Procedures



Recommendation 1
Examine timesheets of staff charging time to the AmeriCorps program so compliance with OMB
A-122 and OMB A-87 can be achieved by all subgrantees.

   Commission's Res~onse1
   The Arkansas ~ e & e Commission (ASC) agrees with the importance of this
   recommendation. For that reason the executive hector and Commission staff will review
   OMB A-122 and OMB A-87 as explained by auditors before the next round of site visits.
   They will carefully document responses to Module C. Section 1. n. of the Commission's Site
   Visit Instrument: "(Does the Program) n. Have member and staff time and attendance records
   signed by individual and official? Adequately document staff time with time sheets andfor
   certifications?" The Commission will follow up by requiring subgrantees to correct any
   deficiencies detected.

Recommendation
Analyze grant match throughout the grant period to minimize the risk of not meeting the match
requirement at the end of the grant period.

   Commission's Response 2
   The Commission has in place a policy for reviewing program match with each monthly
   invoice and withholding payment if the subgrantee falls more than 2% below budgeted
   member costs or 4% below budgeted operating costs. The executive director did not express
   clearly enough to the Commission's finance officer and subgrantees that the program must
   meet match at the end of the program year. Commission policies and procedures will be
   revised to clarify this point.

Recommendation 3
Examine established policies and procedures to determine if weaknesses exist, including
procedures for reconciling the FSR amounts to the accounting system and compliance with the
administrative cost ceiling requirements.

   Commission's Response 3
   The Commission has already examined its policies and procedures and taken steps to ensure
   that program invoices, WBRS program FSRs, state AASIS (statewide information system for
   personnel, purchasing and other records) and eGrants are reconciled on a quarterly basis and
   the programs comply with the administrative cost ceiling requirements. The Commission's
   finance officer and the Department of Health and Human Services Office of Finance and
   Administration person serving the Commission are responsible for carrying out these actions.
Recommendation 4
(We recommend that the Corporation:) Review the next filed FSR to ensure that the amount in
question and the related administrative costs have been properly excluded.

   Commission's Response 4
   The Commission will exclude the questioned member support costs and related
   administrative costs in the final (closeout) FSR for the Competitive grant at the end of June
   2007.

Recommendation 5
(We recommend that the Corporation:) Instruct the Commission to further review members'
eligibility to ensure that excessive terms and other errors do not occur.

   Commission's Response 5
   The Commission and programs count on the Corporation's Trust office to provide
   reconciliation records via WBRS and notify the Commission if records show that an enrolled
   member has sewed at least two terms in other programs. This is the only avenue the
   programs have to ensure that members have not served more than one term prior to their
   current enrollment. The Commission will review the records.

Recommendation 6
(We recommend that the Corporation:) determine why the Trust's controls in place flagging
three term members failed.

   Commission's Response 6
   None required.

Recommendation 7
We recommend that the Corporation instruct the Commission to review timesheets for member
and supervisor signatures during its monitoring process.

   Commission's Response 7
   The Commission agrees that monitoring AmeriCorps member time sheets for signatures,
   dates and accuracy of calculations is important. It will continue to review member time
   sheets during site visits, usually once a year, more often in some cases based on its risk-based
   monitoring policy, and give the program feedback. It will also continue to review randomly
   chosen time sheets from programs on a quarterly basis and give programs feedback. Finally,
   in regularly scheduled meeting with program staff and orientation for new program staff, it
   will stress the importance of havmg all time sheets properly signed, dated, calculated and
   entered in the Web-Based Reporting System (WBRS).

Recommendation 8
The Corporation will need to determine the allowability of the questioned living allowance,
fringe benefits and education award.
   Cornmission's Response 8
   The Commission will provide N e r documentation on request and comply with the
   decision of the Corporation.

Recommendation 9
We recommend that the Corporation instruct the Commission to follow-up on late reports for
timely correction with the subgrantees.

   Commission's Response 9
   The Commission agrees that timely reporting is essential for subgrantees. It also points out
   that the vast majority of the late reports were late by 1-3 days. The two egregious exceptions
   were for programs that had requested no-cost extensions. As a result they were operating and
   reporting on two separate program years simultaneously. Commission monitoring and
                                            - year adequately. The Commission's executive
   controls did not track the extended promam
                                      A



   director and finance officer are now trackingextended pro& years more carefully and
   notifying programs of the need to submit two sets of reports during the overlapping time
   period(s). Finally, Commission and program staff did not understand before the audit that it
   is better to submit a report on time even if it is incomplete or inaccurate rather than to wait
   until the report can be completed with accurate details. That message has been received.
   The Commission will communicate it clearly and regularly to subgrantees.

Recommendation 10
We recommend that the Corporation instruct the Commission to provide a refresher course for its
subgrantees reminding them of program compliance requirements and the important role training
and evaluations play in member development and the success of the program.

   Commission's Response 10
   The Commission has already begun taking steps to address this recommendation. During its
   June 5 planning day to assess training and technical assistance needs for 2007-2008 the
   executive director asked directors of programs that had been audited to share lessons learned
   with other program directors. The program directors were very candid about the
   shortcomings cited in their audits and described steps they were taking to address the
   deficiencies, especially compliance with orientation, training and evaluation requirements for
   members. Notes from the session will be included in the report issued to program directors.
   Since peers usually learn best fiom peers, the Commission will continue to use program
   director testimonials along with its own meetings and training events with program directors
   to stress these points.

Recommendation 11
(We recommend that the Corporation instruct the Commission to:) Review the applicable
regulations and develop policies and procedures to ensure claimed costs are allowable,
adequately documented and allocable in accordance with applicable cost principles and
regulations.
   Commission's Resoonse 11
   Members of the ~ o h n i s s i o nstaff have already met to review the applicable regulations and
   develop policies and procedures as described. Most significantly, the Commission is no
   longerakempting to collect match of the types that were disallowed. Further, all donations
   of time, talent and space will require the donor's signature and valuation of the donation will
   be carehlly documented. Finally, in March of 2007 the Commission begun documenting the
   contribution of Division of Volunteerism staff time with monthly, after the fact certifications
   signed by the employee.

Recommendation 12
(We recommend that the Corporation instruct the Commission to:) Implement procedures
requiring appropriatepersonnel to review the FSRs before they are submitted to the Corporation.
The reviews should include tracing reported amounts on the FSRs to supporting documentation
and verifying the accuracy of the data through appropriately designed analyses.

   Commission's Response 12
   The executive director and finance officer for the Commission were physically present with
   OFA personnel to reconcile accounts before the FSRs due April 30 were submitted. OFA
   staff members have agreed that for future FSRs they will input the data in eGrants, print a
   hard copy for review by the executive director and finance officer of the Commission and
   await their corrections and signed approval before submitting the FSRs to the Corporation.

Recommendation 13
(We recommend that the Corporation instruct the Commission to:) Adjust subsequent FSRs to
reflect actual match costs that are verifiable, accurate and in accordance with the costs principles.

   Commission's Response 13
   The Commission submitted a corrected FSR for the closeout of its Administrative grant in
   March of 2007.
                          APPENDIX B

Corporation for National and Community Service’s Response to Draft
                              Report




                                26
To:

From:
Cc:
                                                  u
                                   Financial Officer
               Kristin McSwain, Director of AmeriCorps
               William Anderson, Deputy CFO for Finance
               Andrew Kleine, Deputy CFO for Planning and Program Management
               Sherry Blue, Audit Resolution Coordinator, Office of the CFO

Date:          June 29,2007

Subject:       Response to OIG Draft Audit Report: Agreed-upon Procedures for
               Corporation Grants awarded to the Arkaosas Service Commission


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Arkansas Service Commission We do not have specific comments at this
time. We will respond to all findings and recommendations in o& management decision
when the final audit is issued, we have reviewed the findings in detail; and worked with
the Commission to resolve the audit.




                        I201 New York Avenue, NW  *Washington, DC 20525
                              202-606-5000 0 www.nationalsenrice.org
                       Senior Corps * AmeriCorps * Learn and Serve America
